OFFICE OF THE ATTORNEY GENERAL
DEPARTMENT OF LEGAL AFFAIRS
THE CAPITOL, PL-01
TALLAHASSEE, FLORIDA 32399-1050

Ashley Moody
Attorney General
State of Florida

August 17, 2020
The Honorable Scott S. Harris,
Clerk of Court
Supreme Court of the United States
One First Street N.E.
Washington D.C. 20543-0001
VIA ELECTRONIC DELIVERY
Re: Rodney Renard Newberry v. Florida,
Case No. 20-5072 — Capital Case
Dear Mr. Harris:
Respondent, the State of Florida, requests a 31-day extension of time to file its Brief
in Opposition to the petition. Sup. Ct. R. 30.4. The The attorney assigned to the case,
while on vacation, was in a car accident and while no one was injured, the accident
delayed his return home. Opposing counsel, Assistant Public Defender Richard M.
Bracey III, has been contacted via email and has no objection to this extension.
Therefore, Respondent request until Monday, September 14, 2020, to complete the
brief in opposition.
Sincerely,
/s/ Carolyn Snurkowski
Carolyn M. Snurkowski
Deputy Attorney General
Counsel of Record
OFFICE OF THE ATTORNEY GENERAL
CAPITAL APPEALS
PL-01, THE CAPITOL
TALLAHASSEE, FL 32399-1050
(850)414-3300
carolyn.snurkowski@myfloridalegal.com
Copies mailed to Assistant Public Defender Richard M. Bracey III Office of the Public Defender Second
Judicial Circuit, 301 South Monroe Street, Suite 401, Tallahassee, FL 32301-1861 this 17th of August,
2020.

